CERTIFICATE OF SERVICE
The undersigned hereby certifies that the foregoing Petition for Certiorari
was served on the parties indicated below via commercial courier for delivery
within 3 days on July 16, 2021.

Solicitor General of the United States
Room 5616

Department of Justice

950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001

DANIEL TENNY

JOSHUA DOS SANTOS
Attorneys, Appellate Staff

Civil Division, Room 7243

U.S. Department of Justice

950 Pennsylvania Avenue NW
Washington, DC 20530

(202) 353-0213

Joshua. Y.Dos.Santos@usdoj.gov
Daniel.Tenny@usdoj.gov
Attorneys for the Federal Defendants-Appellees

ohn M. Cliffor
John M. Clifford,
Clifford & Garde, LLP
815 Black Lives Matter Plaza, NW, #4082
Washington, D.C. 20006
Tel. 202.280.6115
jclifford@cliffordgarde.com
Counsel of Record
